               U.S. Department of Labor
               Office of Inspector General
          National Audit and Evaluations Office




                    Evaluation Report
        Allegations Related to the Operation of the
           New Mexico Department of Labor’s
           Las Cruces One-Stop Career Center

___________________________________________




                                   Report Number: 21-03-010-03-390
                                   Date Issued: August 18, 2003
                        TABLE OF CONTENTS




ABBREVIATIONS AND ACRONYMS…………………………….…………………...i

EXECUTIVE SUMMARY……………………………………………….…...………….1

BACKGROUND………………………………………………………….………………2

OBJECTIVE, SCOPE, AND METHODOLOGY…………………………….…………..2

FINDINGS AND RECOMMENDATIONS……………………………………………...3

      1. Procedures for Processing Applications for Family Members of Center
         Employees Need to be Followed………………………………………….3

      2. Controls Over the Use of State Vehicles Need to be Improved…..………5

      3. Government Time Used for Unauthorized Activities…………………….7

APPENDIX – Agency’s Response ………………………………………………………8
              ABBREVIATIONS AND ACRONYMS



DOL      -   U.S. Department of Labor

NMDOL    -   New Mexico Department of Labor

Center   -   Las Cruces One-Stop Career Center

ETA      -   Employment and Training Administration

NAEO     -   National Audit and Evaluations Office

OA       -   Office of Audit

OIG      -   Office of Inspector General

SAB      -   Southwestern Area Workforce Development Board

WIA      -   Workforce Investment Act




                                   i
                               EXECUTIVE SUMMARY

The Office of Inspector General (OIG) reviewed a complaint alleging improprieties
occurring at the New Mexico Department of Labor (NMDOL), Las Cruces One-Stop
Career Center (Center). The complaint included allegations concerning the operation and
management of the Center, specifically, participant eligibility, State vehicles used for
non-official business, and requiring employees to participate in religious meetings and
read religious books.

Our objective was to determine if the allegations had merit. We reviewed activities
occurring between July 1, 2001 and September 30, 2002. Our review found evidence to
support allegations related to serving relatives of Center employees without prior
approval, misuse of Center vehicles and conducting of religious activities by Center
officials during business hours. We also found a participant who was improperly
enrolled in the Dislocated Workers Program resulting in $2,210.47 incorrectly charged to
the Dislocated Workers Program. The participant was eligible for comparable benefits
under the Adult Program.

The NMDOL generally agreed with our findings and, overall, has taken appropriate
corrective actions. However, NMDOL did not address the issue of whether a legitimate
need exists for Center employees to maintain state vehicles at their residences after work
and during weekends.

Recommendation

We recommend that the Assistant Secretary for Employment and Training ensure that
NMDOL reexamines the need for employees to maintain the State vehicles at their
residences after work and during weekends.




                                             1
                                     BACKGROUND

The Office of Inspector General conducted an evaluation as a result of allegations
regarding improprieties in the management and operation of the New Mexico Department
of Labor’s (NMDOL) Las Cruces One-Stop Career Center (Center) in Las Cruces, New
Mexico. The Center provides workers and employers with a variety of employment
related services such as job referrals, job training, and unemployment insurance services.

The NMDOL is the State agency designated to receive and administer Federal and state
funds under the Workforce Investment Act (WIA) of 1998. The Southwestern Area
Workforce Development Board, also referred to as the “Southwestern Area Board”
(SAB), in Elephant Butte, New Mexico, provides operational oversight of the Center and
assists the State of New Mexico’s Governor in carrying out WIA functions and
responsibilities. Employees at the Center are employed by the NMDOL.


                   OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our evaluation was to determine whether the allegations had merit. The
complaint included allegations concerning the operation and management of the Center,
specifically, participant eligibility, State vehicles used for non-official business, and
requiring employees to participate in religious meetings and read religious books.

We interviewed the complainant and conducted fieldwork at the Center, the NMDOL,
and the SAB. We also reviewed participant case files, employee records, policies and
procedures and other relevant documentation. We reviewed 12 files of participants
identified as “potential” relatives of Center employees. The 12 participant files were
judgmentally selected based on interviews of Center staff and other individuals who
indicated the participants might be related to Center staff. An additional 30 files, from a
universe of 510 WIA participants, were selected based on a statistical random number
sampling technique. The 30 additional participants files were reviewed to determine
whether the participants met eligibility requirements. Our evaluation period covered
activities occurring between July 1, 2001, and September 30, 2002. We conducted our
evaluation in accordance with the Quality Standards for Inspections published by the
President’s Council on Integrity and Efficiency.




                                              2
                        FINDINGS AND RECOMMENDATIONS


1.     PROCEDURES FOR PROCESSING APPLICATIONS FOR FAMILY
       MEMBERS OF CENTER EMPLOYEES NEED TO BE FOLLOWED

Policies and procedures for processing entitlement applications for family members of
the NMDOL employees were not followed. This occurred because Center personnel
were not aware of the State’s policy for processing applications from Center employees’
family members for services under WIA or other programs offered through the
Department’s One Stop Career Centers. As a result, six family members of Center
employees were approved to receive benefits in the WIA Adult and Dislocated Workers
Programs between July 1, 2001 and September 30, 2002, without the required prior
review and determination of their eligibility status by appropriate officials.

The State of New Mexico’s Policy Issuance No. 11, Section H, Family Members of
Department Employees and Conflict of Interest, dated August 23, 2001, states, “Because
of rules regarding conflicts of interest and the need to maintain fiscal integrity, employees
may not make any decisions regarding a family member’s application for any benefit
available through the Department’s One Stop Career Centers. To prevent any
impropriety or appearance of impropriety, any family member’s application for . . .WIA
or other programs . . . will be initially investigated by the One Stop Career Centers in the
usual course of business as done with any other applicant. When the initial application
and investigation are completed, the file will be referred to the Bureau Chief of the Field
Services Bureau of the Employment Security Division for determination of the family
member’s entitlement to any benefit.”

Based on our review of 42 participant files, we identified 6 participants that were
relatives of Center employees. However, because Center management and staff were not
knowledgeable of the requirements of Policy Issuance No. 11, Field Service Bureau
officials were not included as part of the approval process for determining the eligibility
of these Center employees’ family members to receive WIA program benefits.

An analysis of these files disclosed that these six participants met the requirements to
receive benefits under either the WIA Adult Program or the Dislocated Workers
Program. However, one of the six participants, who had been fired, was incorrectly
approved to receive education and supportive services benefits under the Dislocated
Workers Program since the NMDOL’s State Issuance Title 11, Chapter 2, Part 13, states,
in part, that an individual who has been fired does not meet the dislocated worker criteria.
According to Center officials, they were not familiar with this eligibility requirement
under the Dislocated Workers Program. Therefore, we question $2,210.47 in costs
charged to the Dislocated Workers Program for this participant. However, the participant
was eligible to receive comparable benefits under the Adult Program.




                                              3
In the absence of adequate knowledge of policies and procedures regarding eligibility
determinations for WIA benefits, controls to reduce the occurrence of program
noncompliance are not effective.

Agency Response

In response to our draft report, NMDOL took the following corrective actions:

       (1)     NMDOL revised Policy Issuance No. 11, effective January 13, 2003,
               outlining the procedures for processing applications from family members
               of employees for any benefits administered by the Department. All Area
               Directors were instructed to hold a special staff meeting to review the
               revised policy with all staff. In addition, a Conflict of Interest Disclosure
               form has been developed that is to be filled out by all applicants for
               services in the centers to identify those persons who may be related to a
               department employee to assure their application is processed according to
               Policy Issuance No. 11.

       (2)     NMDOL reviewed all participant files for eligibility. For all program
               participants that were found ineligible for participation in the dislocated
               worker program, a redetermination for eligibility was completed based on
               the original application date and new applications filled out. The NMDOL
               Financial Management Bureau has journal vouchered all cost associated
               with those participants from the dislocated worker funding stream to the
               adult funding stream.

       (3)     Costs totaling $2,210.47 were transferred from the Dislocated Worker
               Funding Stream to the Adult Funding Stream per letter certifying that the
               participant has been tracked under the Adult Program and was not listed as
               a Dislocated Worker participant.

       (4)     In addition to the form that applicants must complete, NMDOL developed
               another form for a reviewer from the Field Services Bureau to use for
               review and approval of the conflict of interest issue relating to relatives of
               department employees applying for benefits administered by the
               department.

OIG Conclusion

NMDOL has taken appropriate corrective actions. Accordingly, we are making no
recommendations to ETA related to this matter.




                                              4
2.     CONTROLS OVER THE USE OF STATE VEHICLES NEED TO BE
       IMPROVED

Center employees are authorized to use State vehicles in the conduct of official business.
Also, as a result of vandalism to State vehicles maintained at the Center overnight, Center
employees are allowed to take the State vehicles to their residences after work hours and
over the weekend. However, Center personnel did not always properly complete the
logbook used to document the use of State vehicles. Therefore, there was insufficient
documentation to conclude that the State vehicles were consistently used for authorized
purposes.

State Policy Issuance No. 34, “Use of State Vehicles,” requires division directors to
develop written procedures for use and care of State vehicles. The policy also prohibits
non-official use of State vehicles, and allows the vehicles to be taken home under special
circumstances that must be documented as part of written procedures.

Our evaluation disclosed that controls were inadequate to monitor the use of State
vehicles. Specifically, information recorded in the vehicle logbook was insufficient to
determine the purpose, date, and destination of each trip, along with the associated
mileage. For example, our review of the logbook disclosed the vehicle destination
recorded as from the office to Las Cruces, without specifying the specific destination and
mileage. Also, information recorded in the logbook did not include vehicle mileage
before Center employees took the State vehicle to their residences for the weekend, or the
mileage of the vehicle upon return to the Center on the following workday. In a separate
case, we were able to confirm that a Center official used a State vehicle for personal
reasons. However, the process used to record information in the Center vehicle logbook
for a specific trip provides insufficient evidence to conclude that a vehicle either was or
was not used for an authorized purpose.

Written procedures and controls to properly account for the use of State vehicles taken
home by Center staff has not been developed. According to an NMDOL official, verbal
permission was given several years ago for employees to take vehicles due to vehicle
vandalism on the Center lot after work and during weekends. However, written
procedures were never established, and the circumstances that warranted State vehicles
being maintained at Center employees’ residences have not been reevaluated.

In the absence of written procedures and management controls, there is reduced
assurance that State vehicles are used only for authorized purposes, and the potential for
improprieties is greatly increased.

Agency Response

In response to our draft report, NMDOL issued DRAFT Policy Issuance 34 to establish
uniform policy and outline procedures for the use of State vehicles by employees of the
NMDOL. The DRAFT policy issuance is currently in review and should be implemented
throughout NMDOL within 30 – 45 days. Also, Form ES100.25 (NMDOL Vehicle



                                              5
Mileage Report) was revised to include Driver’s name and purpose of trip in addition to
destinations, mileage and total mileage.

OIG Conclusion

The DRAFT Policy Issuance 34 establishes the guidelines for maintaining State vehicles
at employee residences after work or on weekends; however, NMDOL did not provide
any indication that the need for employees to take the State vehicles to their residences
after work hours and over the weekend was reexamined.

RECOMMENDATION

We recommend that the Assistant Secretary for Employment and Training ensure that
NMDOL reexamines the need for employees to maintain State vehicles at their residence
after work and during weekends.




                                             6
3.     GOVERNMENT TIME USED FOR UNAUTHORIZED ACTIVITIES

The State of New Mexico’s Policy Issuance No. 11, Standards of Behavior, states, “All
employees are expected to devote their full working day to the business of the State.”
However, we were able to verify that a Center official provided summer interns with
copies of religious materials, and encouraged them to read the materials during working
hours.

During our evaluation, we found that in 2002, the NMDOL conducted an investigation of
a complaint against a Center employee, which alleged the conduct of religious activities
while on the job. The NMDOL found that the employee improperly distributed a
religious book, sanctioned reading of the book, and conducted other religious activities
during working hours.

As a result, the NMDOL issued the employee a 5-day suspension from September 16,
2002 through September 20, 2002. However, in a letter dated October 8, 2002, the
employee provided a Notice of Appeal to the New Mexico State Personnel Office. The
appeal is currently pending. Therefore, since the NMDOL has already taken
administrative action in this matter, we will not provide a recommendation related to this
allegation.




                                             7
                                          APPENDIX

                                    Agency’s Response 1




1
  Attachments 2 and 3 to NMDOL’s reponse have been omitted because they contain personal identifying
information.


                                                 8
9
10
11
12
13
14
15
16
17
18
19
20
21
27
28
29
30
31
32
